           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



    PERFORMANCE INDICATOR AUDIT:
  MANAGEMENT INFORMATION SYSTEMS
     AND MAINFRAME PROTECTION


   September 2006   A-15-06-16112




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

      Conduct and supervise independent and objective audits and
      investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
      operations.
      Review and make recommendations regarding existing and proposed
      legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
      problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

      Independence to determine what reviews to perform.
      Access to all information necessary for the reviews.
      Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                     SOCIAL SECURITY

MEMORANDUM


Date:   September 18, 2006                                                            Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Performance Indicator Audit: Management Information Systems and Mainframe
        Protection (A-15-06-16112)


        We contracted with PricewaterhouseCoopers, LLP (PwC) to evaluate 15 of the Social
        Security Administration’s performance indicators established to comply with the
        Government Performance and Results Act. The attached final report presents the
        results of three of the performance indicators PwC reviewed. For the performance
        indicators included in this audit, PwC’s objectives were to:
           •   Assess the effectiveness of internal controls and test critical controls over data
               generation, calculation, and reporting processes for the specific performance
               indicator.
           •   Assess the overall reliability of the performance indicator’s computer processed
               data. Data are reliable when they are complete, accurate, consistent and are not
               subject to inappropriate alteration.
           •   Test the accuracy of results presented and disclosed in the Fiscal Year 2005
               Performance and Accountability Report.
           •   Assess if the performance indicator provides a meaningful measurement of the
               program it measures and the achievement of its stated objective.

        This report contains the results of the audit for the following indicators:

           •   Enhance efforts to improve financial performance using Managerial Cost
               Accountability System.
           •   Improve workload information using Social Security Unified Measurement
               System.
           •   Maintain zero outside infiltrations of SSA's programmatic mainframes.
Page 2 – The Commissioner

Please provide within 60 days a corrective action plan that addresses each
recommendation. If you wish to discuss the final report, please call me or have your
staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
(410) 965-9700.




                                               S
                                               Patrick P. O’Carroll, Jr

Attachment
MEMORANDUM

Date:   September 6, 2006

To:     Inspector General

From:   PricewaterhouseCoopers, LLP

Subject: Performance Indicator Audit: Management Information Systems and Mainframe
        Protection (A-15-06-16112)


OBJECTIVE
The Government Performance and Results Act (GPRA)1 of 1993 requires the Social
Security Administration (SSA) to develop performance indicators that assess the
relevant service levels and outcomes of each program activity.2 GPRA also calls for a
description of the means employed to verify and validate the measured values used to
report on program performance.3

Our audit was conducted in accordance with generally accepted government auditing
standards for performance audits. For the performance indicators included in this audit,
our objectives were to:

        1. Assess the effectiveness of internal controls and test critical controls over
           data generation, calculation, and reporting processes for the specific
           performance indicator.

        2. Assess the overall reliability of the performance indicator’s computer
           processed data. Data are reliable when they are complete, accurate,
           consistent and are not subject to inappropriate alteration.4

        3. Test the accuracy of results presented and disclosed in the Fiscal Year (FY)
           2005 Performance and Accountability Report (PAR).

        4. Assess if the performance indicator provides a meaningful measurement of
           the program it measures and the achievement of its stated objective.




1
  Public Law Number 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 United States
Code (U.S.C.), 31 U.S.C. and 39 U.S.C.).
2
  31 U.S.C. § 1115(a)(4).
3
  31 U.S.C. § 1115(a)(6).
4
  GAO-03-273G, Assessing Reliability of Computer Processed Data, October 2002, p. 3.


PIA: Management Information Systems and Mainframe Protection (A-15-06-16112)                          1
BACKGROUND
We audited the following performance indicators as stated in the SSA FY 2005 PAR:

       Performance Indicator               FY 2005 Goal                 FY 2005 Actual
                                                                       Reported Results
    Enhance efforts to improve
    financial performance using
                                                 15%                           5%
    Managerial Cost Accountability
    System (MCAS).5
    Improve workload information
    using Social Security Unified
                                                 46%                          42%
    Measurement System
    (SUMS).6
    Maintain zero outside
    infiltrations of SSA's                  0 infiltrations               0 infiltrations
    programmatic mainframes.7

MCAS and SUMS Projects
SSA is developing two new systems to enhance the monitoring and reporting of
financial and performance data. MCAS and SUMS will be a key enabler to allow SSA to
monitor and report progress toward achieving its strategic goals and objectives and
tracking resource expenditures.8

SSA Information Systems
SSA employees process a tremendous amount of sensitive personal data through the
SSA mainframe applications on a daily basis. To ensure the integrity and security of
this data, SSA has invested heavily in the development and implementation of multiple
layers of electronic security. As a result, SSA management has implemented numerous
intrusion detection and prevention controls to identify and address threats to the SSA
systems. SSA management continuously monitors the security of the SSA mainframe
environment, and the networks that surrounds it.

RESULTS OF REVIEW
We did not identify any significant findings related to the internal controls, data reliability,
meaningfulness, accuracy of presentation, or disclosure of the information related to the
indicators "Enhance efforts to improve financial performance using Managerial Cost
Accountability System (MCAS)" and "Improve workload information using Social
Security Unified Measurement System (SUMS)." We identified findings related to


5
  SSA, PAR FY 2005 p. 99.
6
  Id. p. 84.
7
  Id. p. 98.
8
  Id. pp. 35 and 42.


PIA: Management Information Systems and Mainframe Protection (A-15-06-16112)                  2
internal controls, meaningfulness, and accuracy of presentation and disclosure of the
information contained in the PAR for the indicator "Maintain zero outside infiltrations of
SSA's programmatic mainframes."

Enhance efforts to improve financial performance using Managerial Cost
Accountability System (MCAS)

Indicator Background

           “MCAS focuses on critical performance and financial information needed by
           managers and employees, and promotes performance accountability for Social
           Security programs. As stewards of the Social Security Trust Fund, SSA must
           also model appropriate information management processes to ensure
           accountability for workloads. The Agency’s MCAS includes a number of projects
           designed to update the cost analysis system, reporting systems, workload
           measurement systems, and system access. The integration of financial and
           performance management systems will allow the Agency to routinely assess
           performance and financial information in order for local managers to make more
           timely and efficient day-to-day decisions."9


Performance Indicator Calculation



                                           A methodology which weights individual
                                     =     projects to create a combined percentage is
           Performance %
                                           used to track the overall completion of this
                                           initiative.10


The SUMS/MCAS project plan tracking and releases as reported to the SUMS/MCAS
Executive Steering Committee are the data sources for this calculation.

Findings

We did not identify any significant findings related to the internal controls, data reliability,
accuracy of presentation, meaningfulness, or disclosure of the information related to this
indicator contained in the PAR.




9
    Id. p. 99.
10
     Id. p. 99.


PIA: Management Information Systems and Mainframe Protection (A-15-06-16112)                  3
Improve workload information using Social Security Unified Measurement
Systems (SUMS)

Indicator Background

         "The Agency has recognized the need to improve the quality, consistency and
         access to information that is used by managers and analysts throughout SSA to
         manage work and account for resources. The objective of SUMS is to create a
         system for SSA operational components that counts and measures all work in a
         consistent manner regardless of where the work is processed. This system
         provides access to information needed to meet changing business requirements,
         support process reviews and comply with government standards. Access to web
         based reports and workload control listings and other information are available
         on demand, eliminating the need for paper reports."11

SUMS is considered a key enabler in monitoring and reporting on SSA's progress
toward achieving its strategic goals and objectives and tracking resource expenditures.
The objective of this system is to count and to measure work in a consistent manner at
all organizational levels. It provides the detailed information that managers need to
monitor service, forecast workloads, and make informed decisions on how best to
manage work and resources.12


Performance Indicator Calculation



                                         A methodology which weights individual
                                         projects to create a combined percentage
                                         used to track the overall completion of this
                                         initiative. Completion percentages are also
         Performance %
                                   =     attributed to cross cutting projects, including
                                         Time Allocation and the Customer
                                         Service Record to derive an overall SUMS
                                         completion percentage.13


The SUMS/MCAS project plan tracking and releases as reported to the SUMS/MCAS
Executive Steering Committee are the data sources for this calculation.




11
   Id. p. 84.
12
   Id. p. 35.
13
   Id. p. 84.


PIA: Management Information Systems and Mainframe Protection (A-15-06-16112)               4
Findings

We did not identify any significant findings related to the internal controls, data reliability,
accuracy of presentation, meaningfulness, or disclosure of the information related to this
indicator contained in the PAR.

Maintain zero outside infiltrations of SSA's programmatic mainframes

Indicator Background

SSA maintains an Intrusion Protection Team (IPT) specifically created to prevent
outside infiltrations of systems. The IPT uses numerous software tools to immediately
detect attempts to infiltrate SSA’s network and underlying systems. Additionally,
software controls at all levels of SSA systems are used to prevent unauthorized access
to SSA systems.

SSA created this performance indicator to document the Agency’s success in protecting
the mainframe computers, on which SSA’s sensitive programmatic data resides.
According to SSA security management and the PAR, the indicator is intended to
measure infiltrations from outside of SSA, and not infiltrations from authorized internal
users who manage to elevate their privileges and perform unauthorized actions. In
addition, an infiltration is further defined as “…unauthorized access that requires a
cleanup or restoration of backup files to a state prior to the infiltration.”14 Also the
indicator is intended to only measure infiltrations of the mainframe computers.
Infiltrations that are related to non-mainframe systems, including SSA’s Intranet,
network, and distributed systems are excluded for reporting purposes within this
indicator.

Performance Indicator Calculation



                                                 Count of the times that Mainframe
                                           =     Infiltrations are detected from the
        Total Mainframe Infiltrations
                                                 period of October 1, 2004 to
                                                 September 30, 2005.


The count of mainframe infiltrations is maintained in the Change Asset and Problem
Reporting System (CAPRS).




14
     Id. p. 99.


PIA: Management Information Systems and Mainframe Protection (A-15-06-16112)                  5
Findings

Internal Controls and Data Reliability

We found the policies and procedures related to the formal process to capture, store,
and calculate the results of the performance indicator were not adequate. The
documentation did not accurately describe the process in place during FY 2005 and all
components of the indicator calculation were not included. Office of Management and
Budget (OMB) Circular A-123, Management Accountability and Control, requires,
"...documentation for transactions, management controls, and other significant events
must be clear and readily available for examination. …"15

It should be noted that SSA management was in the process of updating the
documentation related to this indicator during the time of the audit. As the calculation of
this indicator is not based on computerized data, we did not complete an analysis of
data reliability.

Accuracy of PAR Presentation and Disclosure

The intent of the indicator is to highlight SSA’s success in preventing mainframe
infiltrations. We believe this is an important goal and its success is very relevant to the
Agency. However, it is not possible to state that undetected infiltrations did not occur.
Therefore, management cannot measure or fully assert that an outside infiltration has
not occurred.

We also noted inconsistencies in the descriptions of the indicator. Based on the title of
the indicator, internal infiltrations would not be included in the calculation of this
indicator; however, the definition, as described in the FY 2005 PAR, is unclear with
regard to inclusion of internal infiltrations:

       An infiltration is an unauthorized access that requires a cleanup or
       restoration of back-up files to a state prior to the infiltration. This measure
       is a count of the number of times that an infiltration of mainframes is
       detected.16 (emphasis added)




15
   OMB Circular A-123, Attachment II, Establishing Management Controls, June 21, 1995. Note: OMB
Circular A-123 Revised December 21, 2004, did not become effective until FY 2006 and therefore was
not in place during the time period of the review.
16
   SSA, PAR FY 2005 p. 99.


PIA: Management Information Systems and Mainframe Protection (A-15-06-16112)                         6
Finally, we believe that the data definition too narrowly defines a mainframe infiltration
and could omit important events such as unauthorized access which results in
disclosure of sensitive SSA information or misuse of data that occurs but does not
require clean up or restoration activities. The Federal Information Processing
Standards Publication (FIPS PUB) 200 defines an incident as

        An occurrence that actually or potentially jeopardizes the confidentiality,
        integrity, or availability of an information system or the information the
        system processes, stores, or transmits or that constitutes a violation or
        imminent threat of violation of security policies, security procedures, or
        acceptable use policies.17

Additionally, the indicator excludes infiltrations of SSA’s Intranet, network and
distributed systems which maintain important Agency information.

Performance Indicator Meaningfulness

SSA management does not provide a clear statement in the PAR of how preventing
outside infiltrations of the mainframe relates to the Agency goal “To ensure superior
Stewardship of Social Security programs and resources,” or the Agency objective of
“Efficiently manage Agency finances and assets, and effectively link resources to
performance outcomes.”

CONCLUSION AND RECOMMENDATIONS

SSA management indicated that the performance indicator “Maintain Zero Outside
Infiltrations of SSA’s Programmatic Mainframes” will be significantly updated in the 2006
PAR. As such we recommend SSA:

     1. Document the policies and procedures used to prepare and disclose the results
        of the performance indicator.

     2. Ensure the performance indicator definitions and reported results are meaningful,
        complete, and consistent with the title by:
              Clearly documenting the inclusion or exclusion of internal infiltrations in
              the calculation of the indicator results;

               Revising the performance indicator results to clarify that it measures only
               detected infiltrations. As an example, the indicator actual performance
               results could be documented as follows:

             Zero outside infiltrations of SSA’s programmatic mainframes were detected.


17
 FIPS PUB 200, Minimum Security Requirements for Federal Information and Information Systems,
March 2006, p. 7.


PIA: Management Information Systems and Mainframe Protection (A-15-06-16112)                    7
              Broadening the indicator data definition to include infiltrations resulting in
              disclosure or misuse of sensitive SSA data; and,

              Expanding the calculation of indicator results to include infiltrations of the
              Agency's intranet, network, and distributed systems.

   3. Articulate and disclose the linkage of the performance indicator to the Agency’s
      strategic goals and objectives.

AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix D for the Agency’s comments.




PIA: Management Information Systems and Mainframe Protection (A-15-06-16112)                   8
                                          Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Process Flowcharts

APPENDIX D – Agency Comments




PIA: Management Information Systems and Mainframe Protection (A-15-06-16112)
                                                                       Appendix A
Acronyms
 APP         Annual Performance Plan
 CAPRS       Change Asset and Problem Reporting System
 DCS         Deputy Commissioner of Systems
 DMZ         Demilitarized Zone
 US-CERT     United States Computer Emergency Readiness Team
 FIPS PUB    Federal Information Processing Standards Publication
 FY          Fiscal Year
 GPRA        Government Performance and Results Act
 IPT         Intrusion Protection Team
 MCAS        Managerial Cost Accountability System
 OCIO        Office of Chief Information Officer
 OCSO        Office of the Chief Strategic Officer
 PAR         Performance and Accountability Report
 SSA         Social Security Administration
 SRT         Security Response Team
 SUMS        Social Security Unified Measurement System
 VPN         Virtual Private Network




PIA: Management Information Systems and Mainframe Protection (A-15-06-16112)
                                                                       Appendix B
Scope and Methodology
We updated our understanding of the Social Security Administration’s (SSA)
Government Performance and Results Act (GPRA) processes. This was completed
through research and inquiry of SSA management. We also requested SSA to provide
various documents regarding the specific programs being measured as well as the
specific measurement used to assess the effectiveness and efficiency of the related
program.

Through inquiry, observation, and other substantive testing, including testing of source
documentation, we performed the following:

   •   Reviewed prior SSA, Government Accountability Office, and other reports related
       to SSA GPRA performance and related information systems.
   •   Reviewed applicable laws, regulations and SSA policy.
   •   Met with the appropriate SSA personnel to confirm our understanding of each
       individual performance indicator.
   •   Flowcharted the processes. (See Appendix C).
   •   Tested key controls related to manual or basic computerized processes (e.g.,
       spreadsheets, databases, etc.).
   •   Conducted and evaluated tests of the automated and manual controls within and
       surrounding each of the critical applications to determine whether the tested
       controls were adequate to provide and maintain reliable data to be used when
       measuring the specific indicator.
   •   Identified attributes, rules, and assumptions for each defined data element or
       source document.
   •   Recalculated the metric or algorithm of key performance indicators to ensure
       mathematical accuracy.
   •   For those indicators with results that SSA determined using computerized data,
       we assessed the completeness and accuracy of that data to determine the data's
       reliability as it pertains to the objectives of the audit.

As part of this audit, we documented our understanding, as conveyed to us by Agency
personnel, of the alignment of the Agency’s mission, goals, objectives, processes, and
related performance indicators. We analyzed how these processes interacted with
related processes within SSA and the existing measurement systems. Our
understanding of the Agency’s mission, goals, objectives, and processes were used to
determine if the performance indicators being used appear to be valid and appropriate
given our understanding of SSA’s mission, goals, objectives and processes.

We followed all performance audit standards in accordance with generally accepted
government auditing standards. In addition to the steps above, we specifically
performed the following to test the indicators included in this report:



PIA: Management Information Systems and Mainframe Protection (A-15-06-16112)          B-1
MANAGEMENT INFORMATION SYSTEMS, MANAGEMENT COST
ACCOUNTABILITY SYSTEMS (MCAS) AND SOCIAL SECURITY
UNIFIED MEASUREMENT SYSTEMS (SUMS)

   •   Reviewed documentation related to project development, implementation and
       management activities.
   •   Reviewed the projects to determine whether they were developed in accordance
       with Agency policies regarding application software development.
   •   Reviewed each of the projects and, as applicable, found they were released into
       production during the time frame reported in the Fiscal Year 2005 Performance
       and Accountability Report by obtaining their software release documentation
       and/or observing the use of the system in production.

MAINTAIN ZERO OUTSIDE INFILTRATIONS OF SSA’S
PROGRAMMATIC MAINFRAMES

   •   Assessed the reliability of the data by inquiring of appropriate personnel as to the
       sources of the data included on, and the process for reviewing, the United States
       Computer Emergency Readiness Team (US-CERT) reports.
   •   Reviewed the cumulative, September 30, 2005, US-CERT report
   •   Interviewed various SSA personnel (including the Intrusion Protection Team,
       SSA Security Response Team, Chief Security Officer, Virtual Private Network
       and Modems Administration and Support teams, Top Secret Administrators and
       Security Officer) responsible for protecting the mainframe to gain an
       understanding of the tools and processes implemented to protect, monitor and
       report on SSA’s systems security.
   •   Performed (during SSA’s FY 2005 Financial Statement Audit) penetration testing,
       firewall assessments, mainframe operating system and Top Secret configuration
       reviews.




PIA: Management Information Systems and Mainframe Protection (A-15-06-16112)            B-2
                                                                               Appendix C

Flowchart of Management Information Systems, MCAS and
SUMS




PIA: Management Information Systems and Mainframe Protection (A-15-06-16112)           C-1
Management Information Systems, MCAS and SUMS

•   Portions of the MCAS and SUMS application were developed prior to FY 2005.
•   The current year goal is reported in the APP.
•   SSA management approves the goal and the APP is published.
•   Each application scheduled for completion during the current year is planned, tested,
    and completed, as appropriate.
•   Each completed application is moved into production.
•   Milestone completed is reported to the OCSO.
•   The percent complete of the overall goal is updated to reflect the application that has
    been completed and is in production.
•   Meetings are held to discuss overall progress of projects as well as deviations which
    are included on the monthly tracking report. These meetings include: Bi-weekly
    project manger meetings, Monthly Executive Steering Committee Meeting, Monthly
    meeting with the DCS, Monthly Executive Staff meeting with the Commissioner.
•   Updated completion calculation is reported in the PAR for the MCAS and SUMS
    indicators.




PIA: Management Information Systems and Mainframe Protection (A-15-06-16112)           C-2
Flowchart of Mainframe Protection




PIA: Management Information Systems and Mainframe Protection (A-15-06-16112)   C-3
Mainframe Protection

•   Activity occurs through outside points of entry. This includes the VPN and vendor
    access.
•   SSA and IBM monitor port settings (including remote access points), the Internet
    firewalls, the Intranet, and the DMZ.
•   Is activity unusual or suspicious?
             o No - No action is taken.
             o Yes - Alert is forwarded to the IPT.
•   CAPRS ticket is created by IPT and/or SRT.
•   Did mainframe infiltration occur?
             o No - Document activity noted from the alert and reasoning behind decision
                 in CAPRS and close ticket.
             o Yes - Mainframe infiltration is contained and received by IPT and CAPRS
                 ticket is closed.
•   Risk Management Program personnel, IPT, and SRT meet with management to
    discuss security of SSA systems on a monthly basis. In addition, a monthly incident
    report is produced for management and US-CERT.
•   Infiltration included on US-CERT report; if no infiltrations are noted, this is recorded
    on the report.
•   OCIO provides the number of mainframe infiltrations detected to OCSO on a
    monthly basis and at year end.
•   Results of the indicator are reported in the PAR on an annual basis.




PIA: Management Information Systems and Mainframe Protection (A-15-06-16112)             C-4
                                                                       Appendix D

Agency Comments




PIA: Management Information Systems and Mainframe Protection (A-15-06-16112)
                                         SOCIAL SECURITY

MEMORANDUM


Date:      September 5, 2006                                                    Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Performance Indicator Audit:
           Management Information Systems and Mainframe Protection” (A-15-06-16112)--
           INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report are
           attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Comments




           PIA: Management Information Systems and Mainframe Protection (A-15-06-16112)                  D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “PERFORMANCE INDICATOR AUDIT: MANAGEMENT INFORMATION
SYSTEMS AND MAINFRAME PROTECTION” (A-15-06-16112)

Thank you for the opportunity to review and provide comments on this draft report. The report
notes that the auditors did not identify any significant findings related to two of the three
performance indicators included in this audit: "Enhance efforts to improve financial performance
using the Managerial Cost Accountability System" and "Improve workload information using
Social Security Unified Measurement System." However, the report includes significant
findings related to the performance indicator "Maintain zero outside infiltrations of SSA's
programmatic mainframes."

We are reviewing the performance indicator “Maintain Zero Infiltrations of SSA’s Programmatic
Mainframes,” as well as the data definition and the linkage of the indicator to the Agency’s
Goals and Objectives. In this regard, we are taking an in-depth look at the existing tools and
techniques to determine the Agency’s ability to monitor, record and report meaningful
measurements to include infiltrations of the Agency’s intranet, network and distributed systems.

We have the following comments on the report’s recommendations.

Recommendation 1

Document the policies and procedures used to prepare and disclose the results of the
performance indicator.

Comment

We agree. We documented the policies and procedures used to prepare and disclose the results
of the performance indicator and provided them to OIG and PricewaterhouseCoopers (PwC).
PwC indicated the policies and procedures sufficiently document the processes.

Recommendation 2

Ensure the performance indicator definitions and reported results are meaningful, complete, and
consistent with the title by:
       - Clearly documenting the inclusion or exclusion of internal infiltrations in the calculation
       of the indicator results;
       - Revising the performance indicator results to clarify that it measures only detected
       infiltrations. As an example, the indicator actual performance results could be
       documented as follows:
       Zero outside infiltrations of SSA’s programmatic mainframes were detected.
       - Broadening the indicator data definition to include infiltrations resulting in disclosure or
       misuse of sensitive SSA data; and,
       - Expanding the calculation of indicator results to include infiltrations of the Agency's
       intranet, network, and distributed systems.



PIA: Management Information Systems and Mainframe Protection (A-15-06-16112)                     D-2
Comment

This recommendation contains 4-items. We agree with the first item and are performing an in-
depth review to ensure the performance indicator definitions and reported results are meaningful,
complete and consistent.

We also agree with the second item included in this recommendation. We are revising the
performance indicator to clarify that it measures only detected infiltrations.

Regarding the third item included in this recommendation, we are determining the technical
aspects and feasibility of including infiltrations resulting in disclosure or misuse of sensitive
data. Currently, we are unsure of the available methodologies, tools and techniques. If this
section of the recommendation cannot be implemented using the existing processes, an
evaluation and cost analysis will be required.

About the fourth item included in this recommendation, we are determining if, using existing
technologies, methodologies and tools, the results can be measured to include infiltrations of the
Agency’s intranet, network and distributed systems. If this section of the recommendation
cannot be implemented using the existing processes, this will also require an evaluation and cost
analysis.

Recommendation 3

Articulate and disclose the linkage of the performance indicator to the Agency’s strategic goals
and objectives.

Comment

We agree. We will update the Performance and Accountability Report and Information
Resources Management plan to articulate the linkage of the performance indicator to the
Agency’s strategic goals and objectives.

[In addition to the comments above, SSA provided a technical comment, which has been
addressed in the final report.]




PIA: Management Information Systems and Mainframe Protection (A-15-06-16112)                        D-3
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
